                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




Final Audit Report
Subject:



     AUDIT OF THE OFFICE OF PERSONNEL
  MANAGEMENT’S OVERSIGHT OF THE FEDERAL
   FLEXIBLE SPENDING ACCOUNT PROGRAM
              WASHINGTON, DC




                                           Report No. 4A-RI-00-12-024


                                           Date: February 6, 2013



                                                            --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                     AUDIT REPORT



                      AUDIT OF THE OFFICE OF PERSONNEL
                   MANAGEMENT’S OVERSIGHT OF THE FEDERAL
                    FLEXIBLE SPENDING ACCOUNT PROGRAM
                               WASHINGTON, DC


                                CONTRACT NUMBER: OPM030300009




             Report No. 4A-RI-00-12-024                                         Date: 02/06/13




                                                                                     ____________________________
                                                                                     Michael R. Esser
                                                                                     Assistant Inspector General
                                                                                       for Audits

                                                            --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                              EXECUTIVE SUMMARY



                 AUDIT OF THE OFFICE OF PERSONNEL
              MANAGEMENT’S OVERSIGHT OF THE FEDERAL
               FLEXIBLE SPENDING ACCOUNT PROGRAM
                          WASHINGTON, DC


                      CONTRACT NUMBER: OPM030300009




        Report No. 4A-RI-00-12-024                     Date: 02/06/13

The enclosed audit report details the results of our audit of the Office of Personnel
Management’s (OPM) oversight of the Federal Flexible Spending Account Program (FSAFEDS)
for the years 2006 through 2009. The primary objective of our audit was to determine whether
OPM administered the FSAFEDS program in accordance with 5 CFR Parts 890 and 892 and
OPM’s contract [Contract Number OPM030300009 (the Contract)] with SHPS (Sykes
Enterprises and Health Plan Services). The audit was performed in our Washington, D.C. office
from March 26, 2012 to July 6, 2012.

The results of our audit have been summarized below.

                                PROGRAM OPERATIONS

Our review concluded that the job descriptions of the departments involved with the
administration of the FSAFEDS program adequately cover the duties and responsibilities
necessary to administer the program under the Contract.




                                              i
                            CASH MANAGEMENT ACTIVIES

•   No Annual Review of the Risk Reserve Fee                                       Procedural

    OPM was unable to provide documentation to support its annual reviews of the Risk Review
    surcharge (Risk Reserve fee) as required by the Contract.

                                    FRAUD AND ABUSE

Our review of OPM’s policies and procedures for fraud and abuse showed that they were
sufficient to detect and deter potential fraud and abuse activities.

                           PROGRAM IMPROVEMENT AREAS

In addition to the above, we identified the following program improvement areas:

•   No Policies and Procedures for Administering the Risk Reserve                  Procedural

    OPM had no policies and procedures in place for maintaining and reconciling the Risk
    Reserve account and for reviewing the Risk Reserve fee.

•   Erroneous Charges to the Trust Fund                                            Procedural

    OPM erroneously charged FSAFEDS salary-related expenses to the Trust Fund account.

•   No Resolution of Program’s Internal Review Recommendations                     Procedural

    OPM did not formally resolve open items from a review of FSAFEDS that was issued on
    November 6, 2007, by OPM’s Center for Internal Control and Risk Management.




                                               ii
                                                   CONTENTS
                                                                                                                     PAGE

       EXECUTIVE SUMMARY ............................................................................................... i

  I.   INTRODUCTION AND BACKGROUND ......................................................................1

 II.   OBJECTIVES, SCOPE, AND METHODOLOGY ...........................................................2

III.   AUDIT FINDINGS AND RECOMMENDATIONS ........................................................4

        A.      PROGRAM OPERATIONS .................................................................................. 4

        B.      CASH MANAGEMENT ACTIVITIES ................................................................ 4

                1. No Annual Review of the Risk Reserve Fee ................................................... 4

        C.      FRAUD AND ABUSE ......................................................................................... 6

        D.      PROGRAM IMPROVEMENT AREAS ............................................................... 6

                1. No Policies and Procedures for Administering the Risk Reserve.................... 6
                2. Erroneous Charges to the Trust Fund .............................................................. 7
                3. No Resolution of Program’s Internal Review Recommendations ................... 8

IV.    MAJOR CONTRIBUTORS TO THIS REPORT ............................................................ 11

       APPENDIX (OPM’s response to the draft report, dated September 17, 2012)
                     I. INTRODUCTION AND BACKGROUND
INTRODUCTION

This report details the results of our audit of the Office of Personnel Management’s (OPM)
oversight of the Federal Flexible Spending Account Program (FSAFEDS) for the years 2006
through 2009. The audit was conducted pursuant to the provisions of 5 CFR Parts 890 and 892
and OPM’s contract [Contract Number OPM030300009 (the Contract)] with SHPS (Sykes
Enterprises and Health Plan Services). The audit was performed by the Office of Personnel
Management’s (OPM) Office of the Inspector General (OIG), as established by the Inspector
General Act of 1978, as amended. The audit was performed in our Washington, D.C. office
from March 26, 2012 to July 6, 2012.

BACKGROUND

At the direction of the President, OPM implemented a health insurance premium conversion plan
in October 2000 for approximately 1.6 million executive branch employees who participate in
the Federal Employees Health Benefits Program. OPM also conducted a study of design and
pricing options for medical and dependent care flexible spending accounts (FSAs) across the
executive branch. Features and operation of the premium conversion plan and the FSAs are
described in the Federal Flexible Benefits Plan under Title 5, Code of Federal Regulations
(CFR), Part 890 and 892. These reimbursement accounts provide tax advantages authorized
under Section 125 of the Internal Revenue Code and are widely used by both private and public
employers in the United States. In the years since their development, FSA programs have
become an expected benefit that is popular among employees.

In 2002, OPM issued a request for proposal to solicit third party administrators who could
provide FSA services to federal employees. In March 2003, SHPS was awarded the Contract,
which includes provisions in section I.11 for audits and inspections of the FSAFEDS program
operations.

OPM, through the collaborative efforts of its various offices, has the overall responsibility for
oversight of the FSAFEDS program. OPM’s oversight responsibilities are funded by budgeted
appropriations and are not paid by federal employees through payroll deductions. OPM’s
oversight responsibilities include, but are not limited to, the following:
       • to maintain and update the FSAFEDS program website;
       • to annually review and set the Risk Reserve fee;
       • to perform annual reconciliations of the Risk Reserve account,
       • to act as a liaison between federal agencies and SHPS;
       • to facilitate the promotion of the FSAFEDS Program in the Federal government; and
       • to respond in a timely manner to a contractor’s request for information and assistance.

This was our first audit of OPM’s oversight of the FSAFEDS program.




                                               1
                II. OBJECTIVES, SCOPE, AND METHODOLOGY
OBJECTIVES

The primary objectives of this audit were to:

   •   Obtain reasonable assurance that OPM is providing proper oversight for the FSAFEDS
       program in accordance with 5 CFR Parts 890 and 892 and OPM’s contract with SHPS
       [Contract Number OPM030300009].

   •   Ensure that the monies received to oversee the program are being used for program
       purposes.

SCOPE

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our audit findings and
conclusions based on the audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on the audit objectives.

To achieve the audit’s primary objectives our work covered program operations, cash
management and fraud and abuse for contract years 2006 through 2009. The audit was
performed at our offices in Washington, D.C. from March 26, 2012, through July 6, 2012.

In planning and conducting the audit, we obtained an understanding of the Plan’s internal control
structure to help determine the nature, timing, and extent of our auditing procedures. This was
determined to be the most effective approach to select areas of audit. For those areas selected,
we primarily relied on substantive tests of transactions and not tests of controls. Based on our
testing, we did not identify any significant matters involving the Plan’s internal control structure
and its operation. However, since our audit would not necessarily disclose all significant matters
in the internal control structure, we do not express an opinion on the Plan’s system of internal
controls taken as a whole.

In conducting our audit, we relied to varying degrees on computer-generated data provided by
the Plan. Due to time constraints, we did not verify the reliability of the data generated by the
various information systems involved. However, while utilizing the computer-generated data
during audit testing, nothing came to our attention to cause us to doubt its reliability. We believe
that the data was sufficient to achieve the audit objectives.

We also conducted tests to determine whether OPM had complied with the Contract, the
applicable procurement regulations, (i.e., Federal Acquisition Regulations), and the laws and
regulations governing the Program. Exceptions noted in the areas reviewed are set forth in the
“Audit Findings and Recommendations” section of this report. With respect to the items not
tested, nothing came to our attention that caused us to believe that OPM had not complied, in all
material respects, with those provisions.


                                                 2
METHODOLOGY

To determine whether OPM’s oversight of FSAFEDS was in compliance with the Contract, and
the FSAFEDS regulations (5 CFR Part 890 and 892), we performed the following audit steps:

   Program Operations

     •   Obtained an organizational breakdown and contact information of OPM’s management
         and staff directly involved in the administration of FSAFEDS;
     •   Determined OPM’s responsibilities related to its administration of FSAFEDS; and
     •   Determined what departments within OPM (i.e., Office of the Chief Financial Officer
         [OCFO], Call Center, Human Resources, Actuaries, etc.), perform duties for the
         Program to help in the administration of FSAFEDS and determined what services they
         provide.

   Cash Management

     •   Obtained an understanding of OPM’s Risk Reserve fee, its calculation, and how often
         the fee was reviewed and/or recalculated;
     •   Performed a reconciliation of the Risk Reserve account for 2008 and 2009;
     •   Determined the policies and procedures in place for maintaining, reconciling and
         reviewing the Risk Reserve account;
     •   Determined OPM’s process and procedures for budgeting monies it receives for
         FSAFEDS related services; and
     •   Determined if the findings and recommendations of OPM’s Center for Internal Control
         and Risk Management’s (CICRM) 2007 review of the FSAFEDS program have been
         resolved and closed.

   Fraud and Abuse

     •   Determined whether OPM had policies and procedures in place to prevent instances of
         fraud and abuse in its administration of FSAFEDS.

The results of our audit were discussed with OPM throughout the audit and at the exit
conference. In addition, a draft report, dated July 12, 2012, was provided to OPM for review and
comment. OPM’s comments on the draft report were considered in the preparation of this final
report and are included as an Appendix to this report.




                                               3
              III. AUDIT FINDINGS AND RECOMMENDATIONS
A. PROGRAM OPERATIONS

  Our review concluded that the job descriptions of the departments involved with the
  oversight of the FSAFEDS program adequately cover the duties and responsibilities
  necessary to administer the program under the Contract.

B. CASH MANAGEMENT ACTIVITIES

  1.   No Annual Review of the Risk Reserve Fee                                      Procedural

       OPM was unable to provide documentation to support its annual reviews of the Risk
       Review surcharge (Risk Reserve fee) as is required by the Contract.

       Modification 002 of the Contract states that beginning in 2004, “and in each future year,
       SHPS and OPM will make a good faith estimate of the risk surcharge necessary to
       recover and offset overpayments in that year.”

       The Risk Reserve account, and related fee, was created by Modification 002 to the
       Contract on January 1, 2004, to recover and offset health care benefit overpayments at the
       end of any plan year. The Risk Reserve fee was originally assessed at $3.50 per member
       per month (PMPM) for contract year 2004. In contract year 2008, the Risk Reserve fee
       was increased to $4.50 PMPM. Finally, in contract year 2012 the fee was reduced to
       $1.00 PMPM.

       During our review we requested that OPM provide documentation of its annual reviews
       of the Risk Reserve fee. OPM was unable to provide any documentation to support the
       reviews because the previous Contracting Officer for the FSAFEDS program did not
       maintain that information and is no longer at OPM.

       OPM stated that it does review the Risk Reserve fee annually. However, in a
       memorandum (dated October 11, 2011) regarding the 2012 reduction in the Risk Reserve
       fee, OPM states that it will reexamine the fee in mid-2013 for a possible change for the
       2014 contract year. Here, OPM clearly states that it does not intend to review the Risk
       Reserve fee on an annual basis by skipping a review in 2012 for the 2013 contract year.

       Our review of the Risk Reserve account as of the end of contract year 2011 found that the
       total of the reserves was $37 million in excess of the target balance ($53 million). Even
       with the recent decrease in the Risk Reserve fee, the Risk Reserve account is still
       expected to accumulate an additional $7 million in funds for the 2012 contract year,
       leaving the Risk Reserve account overfunded.

       As a result of the apparent lack of oversight of the Risk Reserve fee and the accumulating
       account balance, OPM has been charging Federal agencies more than what was needed to
       ensure an acceptable level of reserve funds.

                                               4
Recommendation 1

We recommend that OPM, through the collaborative efforts of its various offices, review
the Risk Reserve account and assessed Risk Reserve fee on an annual basis and that it
maintains documentation of the reviews.

OPM’s Comments:

OPM concurs with the recommendation. However, it disagrees that there was “apparent
lack of oversight of the Risk Reserve fee and accumulating account balance” and states
that it will continue the ongoing communication between its various offices about the
Risk Reserve fee and balance throughout the year. OPM stated that the Risk Reserve is
currently evaluated annually to determine maintenance levels for the reserve as well as
determining the fee charged to agencies. OPM also stated that although the annual
review process was not documented adequately during the scope of the audit that annual
reviews were completed and will continue to be.

OIG’s Comments:

We accept OPM’s comments and stress the importance of it maintaining complete
documentation of the annual review process of the Risk Reserve account and Risk
Reserve fee going forward.

Recommendation 2

We recommend that OPM, through the collaborative efforts of its various offices,
maintain the Risk Reserve fee at an amount near the recommended target balance.

OPM’s Comments:

OPM partially concurs with this recommendation and states that the “risk reserve fund, in
addition to being used to mitigate risk for claims and additional Program expenses, was
also used to accumulate funds for the BENEFEDS Procurement that has been ongoing for
several years.” Additionally, OPM stated that it is considering three potential methods to
address the reserve funds that are above the target balance.

OIG’s Comments:

We are encouraged by the beginning steps taken by OPM to address the overfunding of
the Risk Reserve. However, as we were only provided meeting minutes of the proposal,
we were unable to verify if the proposed methods would alleviate the issue.




                                        5
     Recommendation 3

     We recommend that OPM, through the collaborative efforts of its various offices, offset
     agency Risk Reserve payments until the excess reserves are reduced to the recommended
     target balance.

     OPM’s Comments:

     OPM concurs with this recommendation and states that in 2011 it recognized that “the
     Risk Reserve balance was well above the target and after engaging OA and OCFO,
     reduced the fee from $4.50 per member per month to $1.00 per member per month
     beginning January 1, 2012.”

     OIG’s Comments:

     We accept OPM’s response. However, as stated in the finding, reducing the fee to $1.00
     PMPM will still maintain the reserve above the recommended target balance. Therefore,
     additional corrective action is necessary to reduce the reserve balance to its target.

C. FRAUD AND ABUSE

  Our review of OPM’s policies and procedures for fraud and abuse showed that they were
  sufficient to detect and deter potential fraud and abuse activities.

D. PROGRAM IMPROVEMENT AREAS

  In addition to the audit finding above, we identified the following suggested areas for
  improving the program.

  1. No Policies and Procedures for Administering the Risk Reserve                   Procedural

     OPM has no policies and procedures in place for maintaining and reconciling the Risk
     Reserve account and for reviewing the Risk Reserve fee.

     In its oversight of the FSAFEDS program, OPM has a fiduciary obligation to the program
     to maintain records and have policies and procedures in place for all aspects of
     administering the program and accounting for the funds associated with the program.

     During our review, we issued information requests to OPM to determine the following:
        • if reconciliations of the Risk Reserve account had been performed;
        • the process for review of the fee and determination of the Risk Reserve fee; and
        • what written policies and procedures regarding the Risk Reserve account exist.

     We found that OPM had no documented policies and procedures related to the Risk
     Reserve fee and account. Specifically, we did not receive any documentation to show
     that reconciliations of the Risk Reserve account were performed. As previously stated,

                                               6
   OPM did not maintain documentation of its reviews of the Risk Reserve fee, and the
   extreme overfunding of the Risk Reserve account makes it appear that the only reviews
   performed were those done when fee adjustments were made and even these reviews
   were not done on an annual basis.

   By not having policies and procedures in place for the maintenance and reconciliation of
   the Risk Reserve account and for the review and determination of the Risk Reserve fee,
   there is a risk of an inaccurate account balance and an over/under funded account.
   Formal policies and procedures promote accountability and assurance that the funds
   managed by OPM are properly maintained and accounted for.

   Recommendation 4

   We recommend that OPM, through the collaborative efforts of its various offices, work
   together to develop formal policies and procedures for the maintenance and reconciliation
   of the Risk Reserve account and for the review and determination of the Risk Reserve
   fee.

   OPM’s Comments:

   OPM concurs with the recommendation and states that the OCFO will work with the
   Program Office to develop and update formal policies and procedures in this area.

   OPM disagrees “with the characterization that ‘the extreme overfunding of the risk
   reserve account makes it appear that the only reviews performed were those done when
   fee adjustments were made and even these reviews were not done on an annual basis’.”
   It stated that it has informal ongoing communications between its various offices which
   were not maintained in the Contract file in the past and that it intended to document these
   communications in the future.

   OIG’s Comments:

   We accept OPM’s response. However, we must reiterate that our statement in the finding
   was made because of the fact that the Risk Reserve balance was found to be $37 million
   in excess of the target balance and that none of OPM’s various offices which administer
   the FSAFEDS program had any documentation to support the ongoing communications
   mentioned by OPM.

2. Erroneous Charges to the Trust Fund                                            Procedural

   OPM erroneously charged FSAFEDS salary-related expenses to the Trust Fund (TF)
   account.

   While reviewing salary expenses we discovered that some salary expenses had been
   incorrectly charged to the TF account, which FSAFEDS is not a part of. The Electronic
   Time and Attendance Management System (ETAMS) currently in use at OPM is set up to

                                            7
   charge salaries related to the FSAFEDS Program as a non-TF activity. However,
   ETAMS defaults to TF coding for other employee benefits (Leave [annual, sick, holiday,
   etc.]) which require manual transfers to correct. The Program Office provided us copies
   of the transfers that corrected the erroneous charges in 2009, but it was unable to provide
   transfers for any of the other years.

   By having labor codes for FSAFEDS that are linked to the TF, the TF is at risk for
   unallowable expenses being charged to it.

   Recommendation 5

   We recommend that OPM, through the collaborative efforts of its various offices,
   establish ETAMS coding that ensures that FSAFEDS, and other non-Trust Fund activity
   and employee benefit costs, are not incorrectly charged to the TF.

   OPM’s Comments:

   OPM concurs with the recommendation and states that it has inactivated the FSA labor
   codes for the Trust Fund in ETAMS and has also updated the default labor schedules of
   those employees who use the FSAFEDS TF labor codes. Consequently, FSAFEDS
   employee salary and benefit costs are no longer charged to the TF through ETAMS.
   OPM believes that this action is sufficient to close the recommendation.

   OIG’s Comments:

   We accept OPM’s response. However, we are unable to close this recommendation
   because we could not verify that the labor codes had been inactivated based on the
   documentation provided.

3. No Resolution of Program’s Internal Review Recommendations                     Procedural

   OPM did not formally resolve open items from a review of FSAFEDS that was issued on
   November 6, 2007, by OPM’s CICRM.

   During our review of the administration of the FSAFEDS program we became aware of a
   review that was done by OPM’s CICRM in 2007 of FSAFEDS. We reviewed the final
   report and corrective action plan and determined several items remained unresolved on
   the corrective action plan. Of the 13 recommendations included in the review, 10
   recommendations remained open. OPM concurred with 3 of the 10 open
   recommendations. However, there is no documented resolution of these issues. The
   remaining recommendations that OPM did not concur with related to the following:

   •   Contract Period of Performance;
   •   Risk Surcharge and Reserve Account;
   •   OIG Audit;
   •   Payment of Invoices;


                                            8
•   Recompetition of the FSAFEDS Contract;
•   New Modification to the SHPS Contract; and
•   Oversight by OPM’s Senior Procurement Executive in relation to the recompetition.

We asked for a current update of the corrective action plan and found that no update
existed in OPM’s files. In fact, their systems show the review as closed. OPM also
indicated that the remaining open items were not a priority of Senior Management at the
time and that the main focus had been the Risk Reserve account.

After reviewing the open recommendations, we have concerns that some of these open
items were not resolved. Specifically, when Public Law 108-136, Section 1127 was
enacted making agencies responsible for paying the administrative fees for the FSAFEDS
program, Modification 003 of the Contract was issued making the Federal Acquisition
Regulations (FAR) applicable to the contract. FAR 17.104(a) sets length of contract
limits on multi-year contracts. Therefore, we believe that the contract should have been
rebid at the end of the initial contract term.

Additionally, OPM did not follow proper audit resolution procedures in their
disagreement with the OIG audit of FSAFEDS startup costs.

Finally, we agree with the recommendation that the FSAFEDS invoices should contain
contract and invoice numbers, sufficient detail on charges (including work performed),
and annotations to indicate the reviews performed before payment is authorized.

By not following up and resolving open findings and/or recommendations, the program is
at risk for lax internal controls and not adhering to laws, regulations and the contract
itself.

OPM’s Comments:

OPM partially concurs with the finding and states that it has “established processes and
procedures in place to resolve findings and recommendations for its testing of financial
reporting controls”, and that the review in question was outside of the scope of the
financial reporting control testing. OPM additionally states that it worked with its
internal offices “to address the recommendations by providing the program’s actions on
the recommendations” and that “Once no additional information was requested and the
audit was closed by the audit organization, there was no reason to question the closure.”
OPM, therefore, believes this recommendation should be closed.

Furthermore, since the 2007 audit in question, OPM stated that it has formalized its audit
resolution function of all audits and reviews (including those pertaining FSAFEDS) and
has developed a timeline with agreed upon steps for the resolution of all audits and
reviews.




                                         9
OIG’s Comments:

We accept OPM’s response and stress the need for OPM to follow-up on all audit
recommendations until each is formally resolved. Had all recommendations from the
CICRM audit been formally resolved and corrective actions properly implemented, audit
issues identified in this report may have been reduced or eliminated in their entirety. As
a result of OPM’s efforts in establishing and implementing a process and procedures for
resolving audit findings and recommendations, we have made no recommendation for
this issue.




                                        10
             IV. MAJOR CONTRIBUTORS TO THIS REPORT
Special Audits Group

                 , Auditor-In-Charge

            Staff Auditor



                 , Group Chief

                , Senior Team Leader




                                       11
                                                                                                                      A I' I'I<;I\ IJI X




                 UNITED STATES OFFICE OF PERSO:"l:--'EL ~t~N AGE\IENT




TO;
                                                                                                       SEP 11 2012
                                                                        Chief



FRO:v! ;                      SHIRLEY It PATTEItSOl' fJ ,
                              Assistant Director         . '(/~
                                                                                          'tf,J;t::;.....
                              Federal Employee Insurance Operations

Subject:                  Respon se to Draft Aud it Report on th e Aud it of th e Fed eral Flexible
                          Spending Account Program as Administered by the Office of Personnel
                          Management (Report 1'0. 4A-J{]-OO-12-024)




Encl osed is our response to the Draft Audit Report of the Federal Flex ible Speeding Account
Program (fSAFEDS) as Administered by the Office of Personnel Management (Rep ort No . 4A~
RI-OO- 12-024). The repo rt evaluated tae FSAFEDS Program as administered by the Office of
Personnel Manageme n t' s (OP~i) Healthcare and Insurance (HI) for contract years 2006 through
2009 and contained 8 procedural recommendations across sev eral areas.

HI benefits fro m external evaluations an d appr eciates the oppc rtunity to provide feedback to this
draft repo rt, 'Whi le we h ave not concurred with all rec ommendations we welc ome the
opportunity to more fully discuss cur position, if taat wo uld be helpful in providing co ntext and
clarity to the final report Efforts to improve the review of financial documentati on, evaluate an d
approve appropriate expe nses, devel op stronger controls and expand OUf proced ures are
underway and key stak eholders are working together to address the findings in tbe report .

To give context to the draft audit report, it should b e noted that due to agency, as well as tae
Fede ral Employees Insurance Operation's (FEIO) reorganizat ionfs), references to the "Pro gran:
Office " are not synonymo us wi th the current FEIO Contra ct and/o r Re source Management
Office (RMO) struc tures. -FEIO ' s current R.\10 was established in 20 11, well after the audit' s
sco pe 0[ 2006 to 2009, when Insurance Services Program was organizationall y linked to
Retirement Services und er Human Resources Products and Services and rec eived RMO support
fro m Retiremen t In tae aftermath of ta e 2011 re- organ ization, FElO created its own R..\10 to
provi de ....o rk reporting, 1m , budget and other support previously pro vided by Retirement.
Additionally, the FSAFEDScontracting offic e and Contract Officer have changed as a result of
ta e afor ementioned organizational realignments.

Du e to ~ broad audience of this audit report, includi ng th ose who may access it vi a a Freed om
OfInfo:nnation Act (FO IA) request, we bel ieve additi onal background on the program and
description of its bcecfits and organi zational structure is warranted, This \\; 11 familiarize the




                 Rec(ll it,   Rr1 ~ itl   and H or.1X a Wor!c1-Cl;\$s Work force 10 Serve the   An~ri~ an   Peo ple
 reader with the program's structure, features and organizational coordination required to
 administer and oversee FSAFEDS.

Administration of FSAFEDS is accomplished by several organizations across OPM. This
necessitates coordination between ill (FEIO, RMO and Audit Resolution), the Office of the
Actuary and the Office of the Chief Financial Officer and, occasionally, the Office of General
Counsel. To assist in this coordination, we have leveraged the support of the Internal Oversight
and Compliance to facilitate inter-organizational activities required to address and resolve Draft
and Final audit findings that reach across functional and reporting authorities. Hence, we
respectfully request that findings and recommendations be rewritten acknowledging the
collaborative efforts required to administer FSAFEDS and to implement audit recommendations.
We further request that the recommendations' wording to that used in the administration of
FEDVIP audit, whose recommendations began:

"We recommend that OPM, through the collaboration efforts of its various offices, ... "

  Working in coordination with the Office of the Chief Financial Officer, Office of the Actuaries,
  SHPS, and Long Term Care Partners (BENEFEDS), the FSAFEDS Program Office is updating
  oversight proceduresin the FSAFEDS Program. Updating these procedures ensures that all
  participants in the administration of the Program understand their obligations to send and receive
 funds, submit reports, and review data. Upon completion, the Program Office expects to
  meinorialize these updated procedures in a Memorandum of Understanding and in contract
. amendments.

This, and other audits of our Individual Benefits' programs, represents an opportunity to further
strengthen our oversight and administration of FSAFEDS through formalizing stakeholder roles,
documenting procedures and, where necessary, review or amend contract language to clarify
requirements and expectations to better meet the needs of the 330,000 participants in the
program.

                                            Deleted by GIG

                                    Not relevant to the final report.

Cash Management Activities

1. No Annual Review of the Risk Reserve Fee                                            Procedural
                                            Deleted by GIG

                                   Not relevant to the final report.

Recommendation 1

We recommend that OPM, through the collaboration efforts ofits various offices, reviews the risk
reserve account and assessed risk reserve fee on an annual basis and that it maintains
documentation of the reviews.

OPM Response - Concur- While we disagree that there was an "the apparent lack of oversight
of the risk reserve fee and accumulating account balance" we concur with the recommendation
and will continue our ongoing communication between the Program Office, OCFO, the Office of
the General Counsel (OGC) and the Office of the Actuaries (OA) about the risk reserve fee and
balance throughout the year.
 The risk reserve is currently evaluated annnally by the OA to determine the adequacy oflevel to
 maintain in the reserve as well as to determine the fee to charge agencies and payment sources
 for other compensation. The analysis of the risk reserve inclndes many variables associated with
 the Flexible Spending Account program such as forfeitures, previous year's balance, estimated
 take-up rate, paperless reimbursement, payment for claims not collected, etc. the Actuary's
 recommendations are sent to program office which evaluates their recommendation and responds
 to the OA. The result of this evaluation is communicated to agencies through a benefits
 administration letter.

 Although this annual process was not adequately documented during the scope of this audit, the
 reviews were performed yearly and will continue.

                                             Deleted by OIG

                                     Not relevant to the final report.
 Recommendation 2

 We recommend that OPM, through the collaboration efforts ofits various offices, maintains the risk
 reserve fee at an amount near the recommended target balance.

  OPM Response- Partially Concur - See above. The risk reserve fund, in addition to being used to
. mitigate risk for-claims and additional Program expenses, was also used to accumulate funds for
  the BENEFDS Procurement that has been ongoing for several years. In analyzing the Risk
  Reserve fee OA presented three potential ways to address the Risk Reserve account funds that
  are above the target level. FEIO will be recommending an aggressive strategy that 1) further
  reduces the Risk Reserve fee paid by agencies into the account; and 2) reduces the administrative
  fees paid by agencies to SHPS while reimbursing SHPS for that reduction out of the Risk
  Reserve. FETO does not recommend eliminating these fee channels to avoid potential
  administrative burdens when they need to be reopened. This strategy saves money for
  participating agencies and reduces the excess funds at a moderate pace without creating
  administrative problems in the future.

 We are including: evidence ofthis collaboration and the options under consideration to reduce the
 risk reserve fee. .                   -

                                             Deleted by OIG

                                     Not relevant to the final report.
 Recommendation 3

 We recommend that OPM, through the collaboration efforts of its various offices, offset agency risk.
 reserve payments until the excess reserves are reduced to the recommended target balance.

 OPM Response - Concur - See response to Recommendation 2. The Program Office
 recognized in 2011 that the Risk Reserve balance was well above the target and after engaging
 OA AND OCFO, reduced the fee from $4.50 per member per month to $1.00 per member per
 month beginning January 1, 2012.

                                             Deleted by OIG

                                     Not relevant to the final report.
Program Improvement Areas

In addition to the audit finding above we identified the following' suggested areas for improving

the program.


1. No Policies and Procedures for Administering the Risk Reserve                    Procedural

                                           Deleted by   oro
                                   Not relevant to the [mal report.

 Recommendation 4


 We recommend that OFM, through the collaboration efforts ofits various offices, work together to
develop formal policies and procedures for the maintenance and reconciliation of the risk reserve
account and for the review and determination ofthe risk reserve fee.
OPM Response - Concur-

                                           Deleted by   oro
                                   Not relevant to the final report.
We disagree with the characterization that "the extreme overfunding of the risk reserve account
makes it appear that the only reviews performed were those done when fee adjustments were
made and even these reviews were not done on an annual basis". There were, and continue to
be, informal ongoing communication between the Program Office and the OCFO. While
historically this coordination was not retained in the Contract me, efforts are now being taken to
document these.

The OCFO will continue to update, monitor and review the risk reserve fees submitted for
accuracy and completeness. In addition, the OCFO will work with the Program Office to
develop and update formal policies and procedures in this area.

2.	 Program Office Costs in Excess of Budget and Erroneous Charges             Procedural
    to the Trust Fund
                                           Deleted by   oro
                                   Not relevant to the final report.

Recommendation 6

We recommend the Director instruct the OCFO to establish ETAMS coding that ensures that
FSAFEDS (and other non-Trust Fund activity) employee benefit costs are not incorrectly
charged to the Trust Fund.

OPM Response - Concur.
                                           Deleted by   oro
                                   Not relevant to the final report.
Leave (annual, sick. holiday, etc.) defaults to TFA in trust fund organizations. This does not
accurately distribute costs to the correct fund sources. A manual calculation and ET is required
to correctly capture theses indirect labor costs of a non-TFA activity. The Resource Management
Office is currently updating system coding to more accurately assign and reflect Program
expenses and activities.

OCFO Financial Services has inactivated the Flexible Spending Account labor codes for Trust
Fund in ETAMS. Financial Services also updated the default labor schedules ofthose
employees who used the FSAFEDS TF labor codes. As a result, FSAFEDS employee salary and
benefit costs are no longer charged to the Trust Fund through ETAMS. Evidence of this action is
included with this response. The OCFO and the Program Office believe this action is sufficient
to close the recommendation.


                                            Deleted by   oro
                                    Not relevant to the final report.
3. No Resolution of Program's Internal Review Recommendations

                                            Deleted by   oro
                                    Not relevant to the final report.
Recommendation 8

We recommend that OPM. through the collaboration efforts ofits various offices, ensure that all
findings and recommendations on any audit or review go through the proper resolution
procedures and that they properly document the procedures taken to resolve the findings.

OPM Response - Partially Concur - OCFO has established processes and procedures in place to
resolve fmdings and recommendations from its testing for financial reporting controls. The
subject review was outside the scope of the financial reporting control testing. We believe this
recommendation should be closed since the program office worked with the OCFO to address
the recommendations by providing the program's actions on the recommendations. Once no
additional information was requested and the audit was closed by the audit organization, there
was no reason to question the closure. Where audit issues arise outside of Insurance Operations
that affect the benefit programs, FEIO coordinates the resolution with the lOCo

Since this 2007 CICRM audit was issued, FEIO has formalized its audit resolution function,
which handles all audits and reviews pertaining to FElO. In 2011, working with OlG, OA and
OGC, FEIO developed a timeline with agreed upon steps for the resolution of IG and other
audits and reviews in accordance with OMB circular A-50. This agreement is included with this
response.

Thank you for the opportunity to respond to this draft report. Please let us know if there are
additional questions or a meeting would be helpful.
